DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019
_________________________________
BRETT A. BOGLE,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
_________________________________
_______________________________________
PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
_______________________________________

TODD G. SCHER
Florida Bar No. 899641
Law Office of Todd G. Scher, P.L.
1722 Sheridan St # 346
Hollywood, FL 33020-2275
Telephone: (754) 263-2349
FAX: (754) 263-4147
tscher@msn.com
COUNSEL FOR PETITIONER

QUESTIONS PRESENTED--CAPITAL CASE
1.

Whether the prosecution violates Giglio v. United

States, 405 U.S. 150 (1972) and/or Brady v. Maryland, 373 U.S. 83
(1963), if the prosecution presents false and misleading evidence
relating to microscopic hair analysis that exceeds the bounds of
science at trial and/or in a postconviction proceeding?
2.

Whether the prosecution violates Brady v. Maryland, 373

U.S. 83 (1963), in failing to reveal information at trial or in
postconviction that demonstrates impeachment of an FBI Analyst
and the limitations of microscopic hair analysis that was used to
convict and sentence a defendant to death?

i

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . .

ii

TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . .

iv

CITATION TO OPINION BELOW . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . . . . . 2
PROCEDURAL HISTORY. . . . . . . . . . . . . . . . . . . . . . . 2
FACTS RELEVANT TO QUESTIONS PRESENTED . . . . . . . . . . . . . 4
A.

THE TRIAL . . . . . . . . . . . . . . . . . . . . . . 4

B.

THE INITIAL POSTCONVICTION PROCEEDING . . . . . . . . 9
1.

Marcia & Guy Douglas . . . . . . . . . . . . . . 9

2.

Forensic Issues. . . . . . . . . . . . . . . .

15

a.

Hair. . . . . . . . . . . . . . . . . . .

15

b.

DNA . . . . . . . . . . . . . . . . . . .

16

3.

Bogle’s Auto Accident. . . . . . . . . . . . .

20

4.

The Events of September 1, 1991. . . . . . . .

21

5.

Impeachment Evidence of Prosecution Witnesses.

22

THE SUCCESSIVE POSTCONVICTION PROCEEDING. . . . . .

22

FLORIDA SUPREME COURT’S RULINGS . . . . . . . . . . . . . . .

25

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . .

26

C.

I.

THIS COURT SHOULD REVIEW THE ISSUE OF FBI AGENT MICHAEL
MALONE TESTIFYING TO MATERIALLY FALSE STATEMENTS AND
MISLEADING THE JURY THAT CONVICTED AND SENTENCED MR.
BOGLE TO DEATH. . . . . . . . . . . . . . . . . . . 26

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . .
ii

33

CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . .

iii

34

TABLE OF AUTHORITIES
PAGE
Banks v. Dretke,
540 U.S. 668 (2004). . . . . . . . . . . . . . . . .

28, 31

Bogle v. State,
655 So. 2d 1103 (1995) . . . . . . . . . . . . . . . . . . 2
Bogle v. State,
213 So. 3d 833 (Fla. 2017) . . . . . . . . . . . . 3, 30, 31
Bogle v. State,
288 So. 3d 1065 (Fla. 2019). . . . . . . . . 1, 4, 25, 28,31
Brady v. Maryland,
373 U.S. 83 (1963) . . . . . . . . . . . . . . . . . . i, 28
Giglio v. United States,
405 U.S. 150 (1972). . . . . . . . . . . . . . . . . .

i 32

Hildwin v. State,
141 So. 3d 1178 (Fla. 2014). . . . . . . . . . . . . . .

31

Hurst v. Florida,
136 S.Ct. 616 (2016) . . . . . . . . . . . . . . . . . . . 3
Strickler v. Greene,
527 U.S. 263 (1999). . . . . . . . . . . . . . . . . . .

iv

28

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019
_________________________________
BRETT A. BOGLE,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
_________________________________
Brett Bogle respectfully petitions this Court for a writ of
certiorari to review the decision of the Florida Supreme Court.
CITATION TO OPINION BELOW
The Florida Supreme Court’s decision appears as Bogle v.
State, 288 So. 3d 1065 (Fla. 2019). See Attachment A. The Florida
Supreme Court denied Mr. Bogle’s motion for rehearing on February
11, 2020. See Attachment B.
STATEMENT OF JURISDICTION
Petitioner invokes this Court's jurisdiction to grant the
Petition for a Writ of Certiorari to the Florida Supreme Court on
the basis of 28 U.S.C. Section 1257. The Florida Supreme Court
entered its opinion on December 19, 2019, and rehearing was
denied on February 11, 2020.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the Constitution of the United States
provides in relevant part:
No persons . . . shall . . . be deprived of life,
liberty or property, without due process of law.
The Fourteenth Amendment to the Constitution of the United
States provides, in part:
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.
PROCEDURAL HISTORY
On October 2, 1991, Brett Bogle was indicted for First
Degree Murder; burglary of a dwelling with assault or battery;
retaliation against a witness; and robbery (R. 24-6). After a
jury trial, the court entered a judgment of acquittal as to the
robbery (R. 181). Bogle was found guilty as to the remaining
charges (R. 179-80). The jury recommended death by a vote of 7 to
5 (R. 182). However, on December 22, 1992, the trial court
granted a motion for new trial as to the penalty phase (R. 217).
On February 8, 1993, a second penalty phase commenced. The
jury recommended death by a vote of 10 to 2 (R. 234). On February
15, 1993, Bogle was sentenced to death (R. 261-7). On direct
appeal, the Florida Supreme Court affirmed Bogle's convictions
and sentences. Bogle v. State, 655 So. 2d 1103 (Fla. 1995).
Bogle filed a series of state postconviction motions,
pursuant to Florida Rule of Criminal Procedure 3.851.
2

An evidentiary hearing commenced on June 9-13, 2008. On
October 25, 2011, the court denied Bogle’s 3.851 motion. The
Florida Supreme Court affirmed the denial of his claims. See
Bogle v. State, 213 So. 3d 833 (Fla. 2017).
While Bogle’s appeal was pending, on September 7, 2013,
Bogle received information from the United States Department of
Justice (DOJ). The information related to the FBI’s review of
Agent Michael Malone’s testimony at both Bogle’s trial and
resentencing proceeding. According to the FBI, Bogle’s jury
repeatedly heard testimony that “exceeded the bounds of science”.
Based on the information disclosed by the DOJ, Bogle’s
counsel also learned that documents surrounding a 1997 initial
investigation and review of Malone had been disclosed to
journalists pursuant to a FOIA request. Bogle was able to gain
access to the documents in October, 2013.
On January 23, 2014, Bogle filed a second Rule 3.851 motion
based upon the 2013 DOJ review and the documents he obtained
relating to the initial DOJ review (R2. 159-92). The state
circuit court ultimately held Bogle’s motion in abeyance pending
his appeal to this Court.
Bogle subsequently amended his second postconviction motion
on December 20, 2016 and May 19, 2017, with claims related to the
United States Supreme Court’s decision in Hurst v. Florida, 136
S.Ct. 616 (2016) (R2. 283-326; 338-415).
On September 25, 2017, the circuit court summarily denied
Bogle’s second Rule 3.851 motion (R2. 448-676). Bogle filed a
3

motion for rehearing, which was denied by the circuit court on
November 9, 2017 (R2. 734-35).
On December 19, 2019, the Florida Supreme Court affirmed the
denial of relief. Bogle v. State, 288 So. 3d 1065 (Fla. 2019).
FACTS RELEVANT TO QUESTIONS PRESENTED
A.

THE TRIAL
On September 13, 1991, Robert Wolf noticed a body behind the

Beverage Barn (T. 193). The Beverage Barn was located next to
Club 41 (T. 196).
Dr. Vernon Adams was called to the scene. He told the jury
that:
The body was in a grassy area . . . There were
articles of clothing near the body, a head band,
shorts, a brassiere and socks scattered around. The
other sock was still on the body, the only garment left
on the body. And also near the body were three pieces
of concrete which – two of which appeared to be broken
from one piece.
(T. 208). One of the pieces of concrete appeared to have blood on
it (T. 209); there was blood splatter at the scene (T. 213).
The victim, Margaret Torres, had a laceration to her head
and multiple skull fractures; the injuries were consistent with
the piece of concrete found at the scene (T. 220, 239).
Adams testified that there were injuries to Torres’ anus;
she had “several tears ... there was hemorrhage into the tissue”
and some “microscopic hemorrhage into the lining of the rectum.”
(T. 222). The injuries were consistent with anal intercourse (T.
222), though Adams could not determine whether the intercourse
was consensual (T. 248). Adams opined that the injuries were
4

inflicted within 3 hours before her death (T. 247). Adams
approximated the time of death as 3:00 a.m. on the 13th.
Torres blood alcohol content was .26% or .29% (T. 245).
Brett Bogle became the prime suspect in the crime. He had
been dating Katie Alfonso, Torres’ sister (T. 263). At this time,
Torres’ young children lived with Alfonso in a trailer (T. 2612). Torres came by the trailer every day (T. 262).
Bogle moved in with Alfonso for 5 or 6 weeks (T. 264). Bogle
and Torres “never got along” (Id.). Bogle tried to get along with
Torres but they continued to argue (T. 266). Alfonso finally
asked Bogle to leave (T. 266-7). Bogle moved out at the end of
August, 1991, but continued to call Alfonso (T. 268).
On September 1, 1991, Bogle called Alfonso and asked if she
wanted to go to Pinellas County to buy some beer (T. 269).
Alfonso and Torres went with Bogle. On the way back, Bogle and
Torres argued (T. 270).
On the ride home, Bogle called Torres a “bitch, whore” and a
troublemaker (Id.). According to Alfonso, when the group arrived
at her trailer, Bogle tried to enter. Torres threatened “to call
the cops and [Bogle], he just blew up.” (T. 272). He busted the
screens and threw Alfonso out of the way to enter the trailer (T.
273). He grabbed the phone from Torres and twisted her arm (T.
274). Then, he took $54.00 from Alfonso’s pocket and told Torres
that “if she called the cops and pressed charges on him ... that
she wouldn’t live to tell about it.” (T. 275).
That same day, a 911 call was placed from Alfonso’s trailer
5

(T. 255). Deputy Sally Zdanwic responded and spoke to Alfonso and
Torres (T. 256). Zdanwic observed some red marks on Torres’ neck
and wrist (T. 256). She also noticed that a screen on a few doors
were torn and the front door was damaged (T. 256).
Within a few days, Bogle called and threatened Torres if she
pressed charges (T. 277). Bogle called again and Alfonso told him
they were not going to press charges (T. 278).
On the evening of September 12th, Bogle was seen at the Red
Gables Bar (T. 374-5). Jeff Trapp testified that Bogle was with
an individual named Guy Douglas (T. 375). Trapp testified that he
drove Bogle, Douglas and Jeanie Bauerle to Club 41 (Id.). The
group arrived between 10 and 11 p.m. and Trapp saw Torres, who
was by herself (T. 376, 379). Bogle approached Torres and they
had a conversation (T. 377).1 Trapp didn’t notice any injuries or
scratches to Bogle (T. 378). Trapp left the bar 30 to 45 minutes
later (T. 379).
Bogle called Alfonso around 11:00 p.m. and asked if he could
come over (T. 281). Alfonso said “no” and Bogle became furious
and told her that he loved her, but she “can be a real bitch
sometimes.” (T. 281).
Phillip and Tammy Alfonso saw Torres at Starky’s Bar at
10:30 p.m. (T. 407, 432). After about 45 minutes the Alfonso’s
left Starky’s and went to a friend’s house (T. 408-9, 432).
Sometime between 11:30 p.m. and midnight the Alfonsos arrived at
1

As to Bogle’s conversation with Torres, he testified that it did
not appear heated, but “normal” and neither appeared upset with
the other (T. 1219, 1230).
6

Club 41 and saw Torres again, alone (T. 433). Torres joined the
Alfonsos at their table. Bogle approached the table and inquired
if Torres was with them (T. 410, 434). Phillip responded “no”
(Id.). Bogle showed him a scar he had from a car accident (T.
411).2 Phillip saw Torres leave the bar around 1:00-1:15 a.m. (T.
412). He saw Bogle walk by him a few minutes later (T. 413). At
2:00-2:30 a.m. the Alfonsos left Club 41. They testified that
they saw Bogle (T. 413). Though Tammy could not really see Bogle,
her husband asked him why he was so dirty (T. 436). Phillip
testified that Bogle looked like “he had been walking in the mud”
and his crotch was wet (T. 414). Bogle said he had passed out in
a van (T. 414, 437). Tammy testified that she noticed some
scratches on his forehead at this time (T. 437).
On September 13, 1991, Detective Larry Lingo arrested Bogle
(T. 359).3 Lingo testified that Bogle “had what appeared to be
scratches on his forehead and they appeared to be fresh to me at
that point.” (T. 363).
Ronald Cashwell, who worked in the crime scene unit,
testified that he collected a pair of white pants from a bathtub
and the pants “were still damp” (T. 346). Cashwell testified:
Q: When you collected the shoes and the pants and
you packaged them, where did you take them?

2

The Alfonsos testified that they noticed no injuries to Bogle or
scratches on his forehead (T. 411, 435).
3

During Lingo’s testimony, he told the jury that Torres’ clothes
were stacked beside her body in a pile and her sneakers were
placed together on the other side of her body (T. 1281). They
were not ripped or strewn about (T. 1282).
7

A: Packaged them separately and transported them
to the ID garage.
Q: Okay. And are they – were they put in a secured
area?
A: Yes, ma’am.
(T. 346-7; 350).
Corporal Art Picard photographed Bogle on September 14th (T.
339); see State’s Trial Exs. 20 A, B and C. On September 17th
Lingo checked Bogle’s pants out of evidence and examined them:
A: I took a piece of brown wrapping paper put out
on the counter and opened the pants up on top of this
and as they were laying on the paper looking down at
them, the zipper part opened, I found several what
appeared to be pubic hairs inside of the pants and also
inside the legs of the pants.
(T. 366).4
FBI Agent Michael Malone examined and compared the contents
of S-Ex. 13, which was the debris from Bogle’s pants, with the
known head hair and pubic hair from Torres (T. 317). There was a
single “Caucasian pubic hair which matched the pubic hairs of
Margaret Torres. In other words it was microscopically
indistinguishable from her’s and, therefore, I concluded this one
pubic hair from the pants was consistent with coming from
Margaret Torres.” (T. 317-8).
FBI Agent Robert Grispino testified that he identified a
small drop of blood on Bogle’s left shoe, but could not classify
it any further (T. 392). Grispino’s analysis also determined that
blood was present under Torres’ right fingernails (T. 394).
4

Lingo testified that no one had come into contact with the pants
prior to this time (T. 366).
8

FBI Agent Harold Deadman was provided the vaginal swabs on
which another agent had identified seminal fluid and “portions of
cloth having been removed from the victim’s panties” (T. 462).
Deadman explained that he was able to extract DNA from the
panties but: “I obtained insufficient DNA to conduct our
analysis.” So, the result was inconclusive (T. 464). As to the
vaginal swabs, Deadman testified:
[T]here was only a very small amount of DNA
obtained from the vaginal swabs of the three tests that
I conducted. I obtained DNA patterns for two of the
tests and one test I obtained no patterns. The
sensitivity of that particular test was not sufficient
to generate any results. So, again on one of the tests,
the results would be inconclusive because nothing was
obtained.
On one of the tests I did on the – a DNA profile
from the vaginal swab DNA that was matching to Brett
Bogle’s DNA profile. The second produced a result was
also determined to be inconclusive, but for a technical
reason.
(T. 465). Deadman testified that statistically the profile meant
that one in twelve Caucasians would exhibit the same profile (T.
467). Deadman opined that the database overestimated the
statistics so the percentages would be smaller (T. 468).
B.

THE INITIAL POSTCONVICTION PROCEEDING
At the evidentiary hearing, trial counsel, Doug Roberts

explained his perception of the case against Bogle:
The State’s case was that he was the most likely
suspect because he had been arguing with her and there
was just nobody else that they wanted to investigate.
(PC-T. 586). Roberts believed that the ‘scientific evidence was
the big deal in the case” (PC-T. 680). But, the case against
Bogle was “circumstantial” (PC-T. 588, 651). Roberts believed
9

that Bogle was innocent (PC-T. 589).
1.

Marcia & Guy Douglas

Guy Douglas was a target of investigation of Bogle’s defense
(PC-T. 594). ASA Karen Cox’ notes reflect she had been provided
information that Douglas confessed to involvement in the crime:
Marcia Bowerly, sister of Jeane Burile, 6903 Michigan
Avenue, Gibsonton, FL
Guy Douglas 92-7731 capias
talk to re: Guy Douglas confessed to being involved.
(D-Ex. 2)(emphasis added). The information contained therein was
not disclosed to trial counsel (PC-T. 593-4).
Cox testified that she was unsure as to when or how she came
into possession of the information that Douglas had confessed
(PC-T. 425-6). However, Cox’ file reflects that she was involved
in the prosecution of Douglas where he had viciously beaten a
pregnant Marcia as early as May 22, 1992. See D-Exs. 7, 8.
Indeed, Cox had an investigative subpoena issued for Marcia to
meet with her on August 5, 1992 (PC-T. 430, D-Ex. 5).
As Bogle’s trial approached, Cox’ file makes clear that she
or someone with the State spoke to Marcia and that Marcia had
been the source of the information regarding Douglas’ confession
and involvement in Torres’ murder. Just days before Bogle’s trial
was to begin, local attorney Wayne Timmerman returned a call from
Cox (D-Ex. 9). At the evidentiary hearing, the notes reflecting a
return phone call from Timmerman to Cox were explained: In 1991,
Marcia became pregnant with Douglas’ baby. Marcia was in fear of

10

Douglas due to her knowledge of his involvement in killing
Torres. She decided to place her child for adoption and contacted
Timmerman (PC-T. 1026). Though Timmerman did not handle family
law matters, he referred Marcia to another attorney with whom he
shared office space (PC-T. 5255). That attorney, Elizabeth
Hapner, used the services of Timmerman’s wife, Suzanne, in her
practice. However, whether it was because she initially attempted
to retain Wayne Timmerman or because Suzanne Timmerman was
present when Marcia gave birth to her child (PC-T. 817-8), or
whether Marcia simply recalled Timmerman’s name from the office
building where she met with Hapner, Marcia confusedly reported
that she was represented by Timmerman in the adoption proceedings
and she reported that she had told her attorney about her reasons
for giving up her baby and what she knew about Douglas’
involvement in Torres’ killing.5
Marcia told Cox that she had spoken to her attorney about
Douglas’ involvement in killing Torres and Cox attempted to
verify the information. Cox did not disclose the information.
Cox also attempted to verify the information with Marcia’s
husband, Gary Turley. See D-Ex. 15.
Had Cox disclosed the information Marcia possessed, the
defense would have learned that Marcia and Douglas were dating in
1991 (PC-T. 491-2). In September 1991, Marcia lived at the Gables
Motel and worked at the bar (PC-T 493-4). Marcia met Bogle on the

5

Hapner recalled that the father may have committed a murder in
the Gibsonton area in 1991 (PC-T. 5258).
11

night of the crime (PC-T. 494). Marcia observed scratches on
Bogle’s face and forehead, that he had difficulty walking and was
wearing a sling (PC-T. 494, 530). Bogle explained that he had
been involved in a car accident (PC-T. 494). In the early
evening, Marcia, Douglas, Bogle and a girl named “Trish” went to
the Red Gables bar for drinks and proceeded to Club 41 (PC-T.
495-6). When the foursome arrived, they played pool for awhile
and then Marcia sat at the bar (PC-T. 497). Marcia recalled that
later, she and Douglas argued and she decided to leave (PC-T.
498). Marcia, who had been drinking, went out to the parking lot
and fell asleep in a car (Id.). When she awoke, she entered the
bar, had a glass of water, used the restroom and left Club 41 to
walk to the motel (PC-T. 499).
At the motel, Marcia was awakened by Douglas’ entering the
room (PC-T. 502). The next time Marcia woke up, it was daylight
and Douglas was coming out of the shower (PC-T. 503). Marcia’s
sister, Jeanne, also saw Douglas coming out of the bathroom,
holding his clothes in his arms (PC-T. 826).
Later, after learning that Torres had been killed, Douglas
told Marcia that Bogle had been arrested, but he [Douglas] did
not have to worry because he had been with Marcia all night (PCT. 505). Marcia was shocked because he was not with her all night
and when she said this to Douglas, “[h]e told me that he was with
me all night and I needed to – that I didn’t need to say anything
other than that or they would be lucky if they found my body.”
(Id.). That same day Marcia moved out of the motel and left her
12

employ (PC-T. 505, 830). She was frightened about what Douglas
may do to her if she did not provide him with an alibi and
believed that his threat was in relation to Torres’ murder (PC-T.
513, 523).
Jeanne confirmed that Douglas had told Marcia she should
supply an alibi for him and that Marcia was “scared to death” of
Douglas based on what happened (PC-T. 827). Jeanne recalled that
Marcia had told her that the clothes Douglas held as he was
leaving the motel were bloody (PC-T. 827).
In 1992, while pregnant, Douglas beat Marcia and told her
“to quit running [her] mouth.” (PC-T. 518). Marcia assumed that
her sister had mentioned that Marcia had told her about what she
saw on the night of the crime because Douglas and her sister were
together the night before the beating occurred (PC-T. 518-9).
Gary Turley remembered the night of September 12, 1991. He
recalled seeing Douglas leaving Club 41, after dark, in his truck
with Torres (PC-T. 1013). They headed north from Club 41 (PC-T.
1014-5). After going into Club 41 to look for Marcia, Turley left
and saw Bogle get into another car with a dark-haired, heavy-set
female (PC-T. 1016). Turley observed that car head south from
Club 41 (PC-T. 1016). When Turley passed the Beverage Barn, he
saw what he thought was Douglas’ truck in the parking lot (PC-T.
1017). Sometime later, Marcia told Turley that Torres had been
killed; Marcia was hysterical because Douglas had threatened her
and she was scared (PC-T. 1019).
Patricia Bowmen, whose maiden name was Diaz, was the “Trish”
13

that spent time with Bogle on the night of September 12, 1991
(PC-T. 1143). At this time Bowmen had dark hair, weighed over 200
pounds and was 5 feet 2 inches tall (PC-T. 1144-5). Law
enforcement wanted to speak to her because it was believed that
Bowmen gave Bogle a ride home on the night of the crimes (D-Ex.
55). Bowmen remembered the sequence of events consistently with
Marcia (PC-T. 1143-4). Bowmen also testified that she had driven
Bogle home from the club in the morning hours of the 13th (PC-T.
1145).
Trial counsel acknowledged the significance of this
information and testified that he would have considered
presenting such evidence in Bogle’s defense (PC-T. 605-6).
Bogle also presented evidence that in a sworn deposition,
Roger Kelly testified that Torres was drinking and dancing with a
man – not Bogle (D-Ex. 24). As Kelly was leaving Club 41, he saw
Torres outside standing next to the dumpster arguing back and
forth with a man (Id.). Kelly maintained that Torres was arguing
with Douglas (Id.). Bogle was not present during the argument.
And, even before the evidence concerning Douglas came to
light, Cox was informed that Katie Alfonso had called the
victim’s advocate to report that there were two people involved
in killing Torres (D-Ex. 1). Though Cox believed that this was
the type of information she would want to investigate, she did
not disclose the information to the defense.

14

2.

Forensic Issues
a.

Hair

At trial, Cox presented evidence that a pubic hair that
matched Torres had been discovered on Bogle’s pants. However,
at the evidentiary hearing, Lingo admitted that his trial
testimony concerning the storage of evidence and collection of
the hair was not accurate (PC-T. 1404). The prosecution failed to
reveal that after Cashwell collected Bogle’s pants:
CST Cashwell placed the evidence in the drying
shed where they were left to air dry for approximately
six (6) hours, when he removed them and placed them in
the Evidence Room on September 14, 1991. ...
On September 17, 1991, Detective Larry Lingo
checked the pants out of the Evidence Room for
investigative purposes. He found the pants to still be
wet. Also, on September 17, 1991, CST Don Hunt removed
the pants from the Evidence Room and air dried them
until September 18, 1991 when he placed them back in
the Evidence Room.
(D-Ex. 12). In Cashwell’s own written statement he noted: “The
items placed in the [drying] shed are unable to be separated from
each other and could contaminate each other and the shed was full
of other evidence drying.” (D-Ex. 12)(emphasis added).
In addition, at the hearing, it was revealed that Lingo was
removing evidence from the secure evidence room to conduct
“investigation”. See S-Ex. 6; D-Ex. 60. Though Lingo had no
training in the collection of evidence and there were crime scene
technicians who were specially trained to collect and maintain
evidence (PC-T. 1371), he took it upon himself to remove the
white pants as well as evidence collected from the victim during
the autopsy (see D-Ex. 12; S-Ex. 6). During the evidentiary
15

hearing, he could not explain why he had removed the evidence
(PC-T. 1375). It was during this “investigation” that Lingo, who
had no training in the comparison of hairs, happened to find what
he described as a “pubic hair” on Bogle’s pants.6
The prosecution also failed to supply trial counsel with FBI
agent Malone’s bench notes which reflected a critical discrepancy
(PC-T. 634). In his testimony and report, Malone indicated that
the hair found on Bogle’s pants was a pubic hair. He testified
that the pubic hair matched the known sample of pubic hair taken
from Torres. However, Malone’s bench notes indicated that the
hair on Bogle’s pants actually matched the known head hair taken
from Torres (PC-T. 5192-3, 5196; see also D-Ex. 21).7
Dr. Terry Melton, an expert in mitochondrial DNA (mtDNA)
analysis, testified in a proffer that Malone overstated the
results of his comparisons (PC-T. 1090). Melton testified that
independent studies have demonstrated that hair comparison has a
high error rate, generally between 5-10% (PC-T. 1093).
b.

DNA
i.

The DNA profile from the blood beneath
Torres’ fingernails

Bogle had the fingernail cuttings from Torres subjected to
YSTR DNA testing. The results of the testing reveal that two male
6

Lingo described the hair as a pubic hair, though he admitted he
would not be able to tell the difference between a pubic hair and
a hair that originated from a leg, arm, the chest, neck or any
other body area (PC-T. 1376, 1406).
7

Malone also testified that no records or chain of custody were
kept as to the hair and fiber evidence that was submitted to the
FBI (PC-T. 1476-7).
16

individuals did leave some genetic material beneath Torres’
fingernails on the night she was killed – but neither of those
individuals is Bogle (PC-T. 1782, 1837, 1902, 1911-2, 1943,8 DExs. 76, 77). Nasir testified that Torres would have had “to come
in direct contact with the individual” to have his DNA beneath
her nails (PC-T. 1802, 1817). She believed Torres would have had
to rub her hand against him or scratched him (PC-T. 1802). And,
after the DNA was deposited “not a lot of cleaning [of Torres’
hands] took place” (PC-T. 1803).9
ii.

RFLP DNA testing in 1991-92

Bogle presented evidence that unbeknownst to him, Lingo
checked out vital evidence, including the vaginal, anal, and oral
swabs obtained from Torres, for a period of four hours after it
had been submitted to the evidence section of the sheriff’s
office (D-Exs. 11, 60 and S-Ex. 6).
Bogle also presented evidence that the FBI’s bench notes and
data concerning the DNA testing evidenced several problems with
the RFLP testing. See D-Ex. 20.10
In Bogle’s case there was no chain of custody documented and
no documentation concerning the integrity of the evidence (see DEx. 20, PC-T. 1232, 5102). The file does reveal that controls and

8

The State’s expert, Dr. Martin Tracey confirmed Nasir’s
conclusion: “It is not [Bogle’s] DNA.” (PC-T. 1943).
9

Tracey commented that if there had been a positive test for
blood, then it would indicate that the DNA was developed from a
blood source (PC-T. 1954).
10

The file was not disclosed to Bogle (PC-T. 634).
17

tests were not run which may have effected the position of the
fragments (PC-T. 1180-1). The file also reveals inexplicable
difficulties and inconsistencies in the results of the tests (DEx. 20). There were artifacts in some of the autoradiographs that
suggested the possibility that the samples had mixed (PC-T. 1198,
see also D- Exs. 20 and 43). And, the fact that no result was
produced demonstrated a problem with the testing (PC-T. 1199200). There was no reproducibility of the result (PC-T. 1207).11
In addition, neither Bogle, nor the jury, was made aware
that the DNA testing was conducted by an analyst whose name was
never revealed until 2008 (PC-T. 1176-7). At the evidentiary
hearing, agent Deadman testified for the first time in Bogle’s
case that he did not conduct the analysis of the vaginal swabs:
There
technician
laboratory
extracting

would be a biologist, physical science
that would do essentially all of the
work. They would be responsible for
the DNA, running through the RFLP procedure.

(PC-T. 1261). Deadman agreed that it was not made clear to
Bogle’s jury that there was a team analyzing the DNA as opposed
to just him (PC-T. 1292).
Deadman also explained that what he characterized as a
“match” in 1992 and 1993 only meant that “one could not exclude a
particular person” (PC-T. 1252). And, the single probe “match” in
Bogle’s case was “relatively common” (PC-T. 1267).
iii. STR DNA testing in 2002
Former FDLE Analyst, Patricia Bencivenga, testified as to
11

Dr. Libby, a DNA expert, opined that consistency at a single
locus with no reproducibility was unreliable (PC-T. 1211).
18

the STR DNA analysis that was conducted on the vaginal swabs.
When Bencivenga received the swabs they were not sealed and she
had no idea when the swabs were packaged (PC-T. 1578-9). She also
had no idea whether the items that came from Bogle, including
buccal swabs, blood and clothes had been stored with the unsealed
vaginal swabs (PC-T. 1592). If the vaginal swabs had been
contaminated by Bogle’s DNA due to the way items were stored
there would be no way to know (PC-T. 1593). Indeed, STR DNA
testing is very sensitive and causes more likelihood that
contamination can occur (PC-T. 1593).
The results of combining all of the tips from the swabs (PCT. 1559), was a mixture (PC-T. 1564). Bencivenga’s interpretation
of the mixture was subjective (PC-T. 1608, 1612).
The State’s expert, Tracey, testified that while the data
was consistent with two donors, “[y]ou could make the argument
that there were three and they were undetected . . .” (PC-T.
1939). Furthermore, Tracey testified that the data was not
conclusive evidence that the DNA reflected a male and a female
(PC-T. 1940).
Upon interpreting the data, Bencivenga submitted what she
believed was the male profile to CODIS and received a hit that
matched Bogle (PC-T. 1566-7). Bencivenga also testified that the
semen found on Torres’ panties was analyzed and she interpreted
the mixture as being the DNA profile for one male and one female
(PC-T. 1569). She had obtained a profile at only one allele (PCT. 1569). The one allele on the male profile was consistent with
19

Bogle’s (Id.).
Lingo testified at the evidentiary hearing that Bogle denied
having sex with Torres (PC-T. 1367). However, his notes that were
taken contemporaneously in his interview with Bogle include no
reference to Bogle denying he had sex with Torres (PC-T. 1421, DEx. 62). Lingo’s report was not written until nine days after his
interview with Bogle (PC-T. 1421).
3.

Bogle’s Auto Accident

Bogle was involved in an automobile accident on September 6,
1991. The prosecution obtained the accident report which
contained information that Bogle and George Schrader were riding
in a car when another car slammed into Schrader’s vehicle,
sending the vehicle head-on into a telephone pole (D-Ex. 13).
Bogle, who was not wearing a seat belt, was thrown head
first into the windshield of the car and suffered major trauma.
He was rushed to Tampa General Hospital. Bogle’s records reflect
that he sustained lacerations to the head and face (D-Ex. 33, see
also PC-T. 884). He received sutures for the laceration over his
right eye (Id.). He suffered traumatic pneumothorax,” a collapsed
lung caused by fractured or bruised ribs and an injury to his eye
(Id.). He complained of pain on his left side. Bogle remained in
the hospital for three days (Id.).
Mary Schraeder informed the defense investigator that “Brett
had a tremendously difficult time walking, sitting, etc. after
the accident. Mary saw Brett on the Tuesday before the murder and
said that he needed help getting his shirt off because of his
20

injuries.” (D-Ex. 50). Bogle’s mother also described the injuries
her son had suffered during the accident, including the injuries
to his head. See D-Ex. 51. Photos were available of Bogle shortly
after the accident occurred which depicted several facial
lacerations. See D-Exs. 26, 27.12
4.

The Events of September 1, 1991.

Shortly before Bogle’s trial, Everett Smith told the
defense: He knew Bogle because they lived at the same motel in
September, 1991 (PC-T. 709). On September 1st, he and Bogle
picked up Alfonso and Torres and they drove to Manatee County to
purchase beer (PC-T. 712-13). From what Smith could tell Alfonso
was happy and excited to see Bogle (PC-T. 714). After they picked
up the beer, the foursome drove back to the motel where Smith and
Bogle lived (PC-T. 714). Neither Alfonso nor Torres indicated any
fear around Bogle (PC-T. 715). Rather, Bogle and Alfonso acted
like a couple getting along (PC-T. 716).

12

Dr. Edward Willey testified as to the healing process of
abrasions and lacerations (PC-T. 880-1). After reviewing records
and photographs, Willey testified that Bogle’s account of the
accident was consistent with the description of the injuries
noted in the records, i.e. injuries to his forehead and right
cheek from being thrown into the windshield (PC-T. 884). Based on
the photographs from the hospital, Willey would not expect the
wounds to Bogle’s forehead and face to heal in seven days (PC-T.
886)(“Lacerations usually take somewhat longer than that”). The
wounds depicted in the photographs taken after Bogle was arrested
do not appear “fresh” and they do not look like wounds that were
received within three days of the photographs, i.e., the time of
the crime, because they were clean and depressed (PC-T. 886). The
wounds in Bogle’s post arrest photos also appeared in the same
general area as was described in the medical records from Bogle’s
accident (PC-T. 887. And, they did not appear to be “reopened or
reinjured” (PC-T. 889).
21

In the afternoon, Bogle asked Smith if he would take the
girls home (PC-T. 716). Smith drove, Bogle was the passenger, and
Alfonso and Torres sat in the backseat (PC-T. 717-8). While in
the car, Smith did not hear any arguments, threats or name
calling (PC-T. 717). When they arrived at Alfonso’s trailer,
Alfonso, Torres and Bogle walked into the trailer (PC-T. 718). No
one was arguing (PC-T. 718). A few minutes later, Smith heard
some arguing from inside the trailer (PC-T. 718-9). As Bogle left
the trailer he kicked the screen out of the door (PC-T. 719).
5. Impeachment Evidence Of Prosecution Witnesses
Phillip and Tammy Alfonso and Trapp testified at trial about
Bogle’s movements and demeanor on the night of the crime. The
Alfonsos, by Phillip’s account to law enforcement, had been
drinking for five hours when they observed Bogle’s appearance and
demeanor. They were not asked about their intoxication.
In addition, Trapp was inexplicably not questioned about his
outstanding criminal issues. And, Trapp’s testimony was
contradicted by the Alfonsos who testified that Bogle did not
speak to Torres at the bar (R. 412). Trapp also gave conflicting
accounts of how much he drank at Club 41.
C.

THE SUCCESSIVE POSTCONVICTION PROCEEDING
Unbeknownst to Bogle, in 2013, the DOJ and the FBI flagged

his case, for a second time, to consider whether Malone “exceeded
the limits of science by overstating the conclusions that may
appropriately be drawn from a positive association between
evidentiary hair and a known sample.” See R2. 185.
22

In an August 20, 2013 letter to the Office of the State
Attorney for the Thirteenth Judicial Circuit, the DOJ explained
that it “determined that a report or testimony regarding
microscopic hair comparison analysis containing erroneous
statements was used in this case.” (R2. 184). The following
errors in Bogle’s case were identified:
We have determined that the microscopic hair comparison
analysis testimony or laboratory report presented in this
case included statements that exceeded the limits of science
and were, therefore, invalid: (1) the examiner stated or
implied that the evidentiary hair could be associated with a
specific individual to the exclusion of all other-this type
of testimony exceeded the limits of science; (2) the
examiner assigned to the positive association a statistical
weight or probability or provided a likelihood that the
questioned hair originated from a particular source, or an
opinion as to the likelihood or rareness of the positive
association that could lead the jury to believe that valid
statistical weight can be assigned to a microscopic hair
association–this type of testimony exceeded the limits of
the science; and (3) the examiner cites the number of cases
or hair analyses worked in the laboratory and the number of
samples as predictive value to bolster the conclusion that a
hair belongs to a specific individual-this type of testimony
exceeded the limits of science.
(R2. 185). In fact, as to the second type of error, the jury
heard five (5) separate statements that exceeded the bounds of
science (R2. 188-89). And, at Bogle’s resentencing proceeding,
the jury heard testimony that exceeded the bounds of science as
to all three areas of errors on multiple occasions (R2. 190).
In light of the recently disclosed results from the FBI’s
review of Bogle’s case, Bogle learned that a plethora of
documents related to the review that occurred in 1997, in which
the DOJ, Office of the Inspector General, criticized the work of
thirteen examiners at the FBI, one of whom was Michael Malone,
23

had been released. Bogle had requested these documents at the
time of his evidentiary hearing and had attempted to question
Malone and Steve Robertson about the review but was not permitted
to do so by the state circuit court (PC-T. 1469, 5218-19).
The documents reflect that in more than eighty percent of
the cases reviewed, Malone was criticized for the testimony he
provided as to hair analysis – testimony similar to the testimony
he provided to Bogle’s jury. Specifically, Malone was rebuked for
testifying to statistically invalid rates of error. And, Malone
was criticized for misleading courts and fact finders as to the
science behind hair analysis, i.e., that 15 characteristics were
needed to make a “match”. Malone’s comparison and conclusions
were not based on any research or literature and were completely
fabricated to support his opinions. In Bogle’s case, Malone told
the jury: “[I]t’s my policy or it’s the policy of our lab that we
have to find at least fifteen of these individual microscopic
characteristics in the hair.” (T. 312-13; see also T. 1304). This
statement was false.
Malone was also highly criticized for failing to provide
clear notes so that it could be determined whether he performed
the hair comparison in an acceptable manner. And, again, in
almost eighty percent of the cases reviewed, Malone’s testimony
was inconsistent with his lab report and/or bench notes; these
inconsistencies were not the product of transcription errors. The
number of inconsistencies could even be higher, but it was
difficult to decipher Malone’s notes in some cases. Similarly,
24

critical errors occurred in Bogle’s case, one of which Malone
testified was simply a transcription error.
FLORIDA SUPREME COURT’S RULING
In response to Bogle’s claims that he was denied due process
when the jury that convicted him and sentenced him to death heard
materially false and misleading testimony, the Florida Supreme
Court held:
The 2013 DOJ/FBI review is of no help to Bogle here,
however, because he cannot use a successive 3.851
motion to litigate issues that he could have raised in
his initial postconviction motion. Bogle was well
aware of potential deficiencies in Malone's testimony
long before the 2013 review (which, in any event, on
its face says nothing about what the state did or did
not know about the reliability of Malone's testimony).
In our opinion in Bogle II, for example, we noted that
“Bogle ... claims that his trial counsel was deficient
in failing to demonstrate that the hair comparison in
this case was unreliable and flawed.” 213 So. 3d at
847. Relatedly, the record in Bogle's initial
postconviction motion shows that Bogle's counsel had
received notice of the results of an earlier DOJ
review of Malone's work in Bogle's case. That 1999
review found that the lab reports of Malone's work
were not sufficiently documented to determine whether
the work had been done in a scientifically reliable
manner. With diligence, Bogle could have litigated in
his initial postconviction motion the same Brady and
Giglio claims that he raises now.
Bogle v. State, 288 So. 3d 1065, 1068 (Fla. 2019)(footnotes and
citations omitted).

25

REASONS FOR GRANTING THE WRIT
I.

THIS COURT SHOULD REVIEW THE ISSUE OF FBI AGENT MICHAEL
MALONE TESTIFYING TO MATERIALLY FALSE STATEMENTS AND
MISLEADING THE JURY THAT CONVICTED AND SENTENCED MR.
BOGLE TO DEATH.

The Florida Supreme Court’s analysis of Mr. Bogle’s due
process claim was factually and legally erroneous. Initially, the
Florida Supreme Court failed to consider any of the previously
suppressed information relating to the initial 1997 DOJ review of
Malone and others at the FBI. The initial 1997 report prompted a
specific review of several of Malone’s cases, including Mr.
Bogle’s, but was confined to determining whether there were
inconsistencies between Malone’s bench notes, report and
testimony and whether his documentation was sufficient to
conclude that the analysis had been conducted in a scientifically
reliable manner (S-Exs. 5, 5A). That review was not focused on
the reliability of the science itself or whether his testimony
was false or misleading.
Further, at the state court 2008 evidentiary hearing, Steve
Robertson, the independent examiner who reviewed Mr. Bogle’s
case, testified that he had been threatened with the death
penalty if he discussed his review of Malone as it related to
other cases. The circuit court sustained the State’s objection to
questions to both Robertson and Malone about the initial review
and Malone’s work in other cases (PC-T. 1469, 5218-19). Notably,
Robertson also testified as did Malone, under oath, that Malone’s
trial testimony was not misleading and was accurate. That
testimony was credited and used in denying Mr. Bogle’s due
26

process claims.
Between the initial review and the 2013 review, documents
were released to a reporter and Mr. Bogle’s postconviction
counsel was finally able to review them. The documents reflect
that in more than eighty percent of the cases reviewed, Malone
was criticized for the testimony he provided as to hair analysis
– testimony similar to the testimony he provided to Mr. Bogle’s
jury. Specifically, Malone was rebuked for testifying to
statistically invalid rates of error. And, Malone was criticized
for misleading courts and fact finders as to the science behind
hair analysis, i.e., that 15 characteristics were needed to make
a “match”. Malone’s comparison and conclusions were not based on
any research or literature and were completely fabricated to
support his opinions. In Mr. Bogle’s case, Malone told the jury:
“[I]t’s my policy or it’s the policy of our lab that we have to
find at least fifteen of these individual microscopic
characteristics in the hair.” (T. 312-13; see also T. 1304). This
statement was false and the State knew it.
Malone was also highly criticized for failing to provide
clear notes so that it could be determined whether he performed
the hair comparison in an acceptable manner. And, again, in
almost eighty percent of the cases reviewed, Malone’s testimony
was inconsistent with his lab report and/or bench notes; these
inconsistencies were not the product of transcription errors. The
number of inconsistencies could even be higher, but it was
difficult to decipher Malone’s notes in some cases. Similarly,
27

critical errors occurred in Mr. Bogle’s case, one of which Malone
testified was simply a transcription error.
The Florida Supreme Court simply ignored this previously
suppressed exculpatory evidence in its December 19, 2019,
opinion, but it is surely the type of evidence that is admissible
and should have been considered. Likewise, in light of the
obfuscation and false statements made at the 2008 evidentiary
hearing by the State’s witnesses, there is no doubt that Brady v.
Maryland, 373 U.S. 83 (1963), violations occurred. See Banks v.
Dretke, 540 U.S. 668 (2004); Strickler v. Greene, 527 U.S. 263
(1999).
As to the conclusions of the second review of Mr. Bogle’s
case which were contained in the 2013 DOJ Report, the Florida
Supreme Court faulted Mr. Bogle for not litigating those
deficiencies “long before the 2013 review ...” Bogle v. State,
288 So. 3d at 1068. However, while Mr. Bogle has consistently
challenged Malone and the reliability of his testimony, the
State, through expert witnesses, disputed Mr. Bogle’s experts and
allegations and both the state circuit court and Florida Supreme
Court sided with the State in the fact findings and analysis that
was conducted. Now, due to the 2013 DOJ Report, it is
indisputable that what Mr. Bogle has been saying for a decade or
more is true: Malone’s testimony before the jury that convicted
him and the jury that sentenced him to death was false and
misleading, and the State knew it.
The Florida Supreme Court’s ruling is perverse and
28

inconsistent because both the state circuit court and the Florida
Supreme Court have repeatedly credited Malone’s testimony, based
upon a flawed and unreliable science, in upholding Mr. Bogle’s
conviction. For instance, in denying Mr. Bogle’s claim as to
undisclosed information regarding Guy Douglas, the state circuit
court’s prejudice analysis relied in part on Malone’s “testimony
that one of the hairs collected from the pants that Defendant
wore on the night of the murder was microscopically consistent
with Margaret Torres’s pubic hair.” (R2. 622).
Further, in denying Mr. Bogle’s claim as to undisclosed
evidence concerning the storage and handling of Mr. Bogle’s pants
by Lingo and Cashwell, the state circuit court again relied on
Malone’s testimony:
Agent Malone testified that placing evidence in
drying rooms is standard procedure for wet evidence and
it do[es] not cause contamination unless two items
touch one another because hair does not “float through
the air.” (See 11/30/2009 EH, page 135). And after
reading Technician Cashwell’s reprimand, Agent Malone
testified that there is nothing in the report that
would cause him to alter his opinion that the hair
found on Defendant’s pants is a match to Ms. Torres’
pubic hair. (See 11/30/2009 EH, page 160.)
(R2. 626)(emphasis added).
Finally, in denying Mr. Bogle’s newly discovered evidence
claim regarding Marcia Turley and the fingernail scrapings, the
circuit court again relied in part on Malone’s “testimony that
one of the hairs collected from the pants that Defendant wore on
the night of the murder was microscopically consistent with
Margaret Torres’s pubic hair.” (R2. 654).

29

In denying Mr. Bogle’s challenge, based on the DOJ report,
to Malone’s testimony at trial, the state circuit court accepted
Malone’s testimony that he made a transcription error:
The Court finds Agent Malone’s testimony extremely
persuasive on this matter. The reference in the bench
note to a pubic hair only makes sense if he is
referring to K6, a pubic hair, as opposed to K7 which
is a head hair. The Court finds therefore that
Defendant has failed to show that Agent Malone
testified falsely at Defendant’s trial; consequently,
he has failed to show that the State violated Giglio in
regards to Agent Malone’s testimony.
(R2. 657-58)(emphasis added).
The Florida Supreme Court likewise relied on Malone’s
testimony in its opinion affirming the denial of postconviction
relief:
Bogle has not shown that the State suppressed evidence
of contamination. The disciplinary report and
Cashwell’s statement on which Bogle relies do not show
that any evidence was actually contaminated but convey
that the evidence could have been contaminated or
destroyed. Malone testified at the evidentiary hearing
that he found no evidence of contamination on the hairs
retrieved from Bogle’s pants and that the disciplinary
report did not cause him to change his opinion of the
match. Even if Bogle met the first two prongs of Brady,
showing favorable evidence and suppression, the
materiality prong has not been satisfied. Accordingly,
we find that Bogle has failed to establish a Brady
violation.
Bogle v. State, 213 So. 3d at 844-45. Further, in finding a lack
of prejudice as to Mr. Bogle’s guilt phase ineffective assistance
of counsel claim, this Court relied in part on the determination
that “A pubic hair found near the crotch of Bogle’s pants matched
Torres.” 213 So. 3d 833, 846 (Fla. 2017)(emphasis added). In
light of the 2013 DOJ Report, the Florida Supreme Court’s prior

30

finding is clearly erroneous.
Though Mr. Bogle’s expert, Dr. Melton, opined that Malone’s
testimony was unscientific, the state circuit court as well as
this Court refused to consider or credit her testimony. Bogle,
213 So. 3d at 840. To punish Mr. Bogle for the State’s failure to
disclose exculpatory evidence violates due process.
Mr. Bogle submits that the rulings of the state circuit
court and the Florida Supreme Court which relied on the testimony
of Malone and the FBI at trial and during the initial
postconviction proceedings must be re-examined in light of the
recently discovered exculpatory evidence.13 Moreover, the
recently disclosed evidence “cannot be excluded merely because
the new scientific evidence is contrary to the scientific
evidence that the State relied upon in order to secure a
conviction at the original trial. Hildwin v. State, 141 So. 3d
1178, 1187 (Fla. 2014).
Further, the Florida Supreme Court’s analysis is flawed in
that it overlooks the fact that if Mr. Bogle did not prevail on
his claim that “‘hair comparison in this case was unreliable and
flawed’”, see Bogle, 288 So. 3d 1068, it was only because the
State and state courts refused to acknowledge that fact. A
conclusion placing the burden on Mr. Bogle to do more than he did
violates due process. See Banks v. Dretke, 540 U.S. 668, 696
13

For instance, Mr. Bogle now possesses the exculpatory evidence
that was withheld from him at the time of his evidentiary hearing
which demonstrates that Malone’s explanation as to the
inconsistency in his bench notes and testimony was not credible.
31

(2004)(“A rule thus declaring ‘prosecutor may hide, defendant
must seek,’ is not tenable in a system constitutionally bound to
accord defendants due process.”).
And, if the Florida Supreme Court’s analysis is correct then
surely the State was aware of the unreliability of hair analysis
generally and Malone’s testimony at Mr. Bogle’s trial and Malone
and Robertson’s testimony in postconviction. Thus, there can be
no doubt that the State violated Giglio v. United States, 405
U.S. 150, 153 (1972), due to the repeated “deliberate deception
of [the] court[s] and jurors by the presentation of known false
evidence [which] is incompatible with ‘rudimentary demands of
justice.’”
As to the impact of the DOJ’s acknowledgment that the
testimony was false and misleading, the Florida Supreme Court
minimizes it by relying on a single statement made by Malone at
trial after repeatedly misleading the jury and the DNA results
from the vaginal swab and victim’s underwear. In conducting a
myopic analysis the Florida Supreme Court ignored the law and
almost all of the admissible evidence, certainly the exculpatory
evidence, which establishes that Mr. Bogle’s conviction and death
sentence have been undermined: YSTR DNA evidence that two male
individuals left some genetic material beneath Torres’
fingernails on the night she was killed – but neither of those
individuals was Mr. Bogle. And, that because there was blood
beneath Torres’ fingernails, it is likely that the DNA was
obtained from a blood source; evidence that Andy had told the
32

prosecution that two individuals were involved in the homicide;
evidence that Guy Douglas was involved in the victim’s murder;
evidence that Malone’s testimony regarding the hair was false and
misleading; Mr. Bogle’s medical records, which include the
descriptions and diagrams of facial injuries from the car
accident a week before the crime; medical testimony from Dr.
Willey who testified that based on the photographs from the
hospital, he would not expect the wounds to Mr. Bogle’s forehead
and face to heal in seven days; evidence demonstrating the flaws
in the RFLP and STR DNA testing, including the fact that
Detective Larry Lingo inexplicably removed evidence obtained from
Mr. Bogle and the vaginal swabs to conduct “investigation” prior
to sending the samples to the FBI; clear evidence that a
Giglio violation occurred because it went unrevealed to Mr. Bogle
that law enforcement mishandled the physical evidence, including
Mr. Bogle’s pants; Patricia Bowmen’s testimony that she had
driven Mr. Bogle home from the club in the morning hours of the
13th; and Everett Smith’s testimony, which completely disproves
much of Katie Alfonso’s testimony about the “break-in” on
September 1, 1991.
CONCLUSION
Petitioner, Brett A. Bogle, requests that certiorari review
be granted.

33

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been
furnished by United States mail, first class postage prepaid, to
Marilyn Beccue, Assistant Attorney General, Office of the
Attorney General Concourse Center Rd., 3507 E. Frontage Rd.,
Tampa, FL 33607, on July 10, 2020.

/s/ Todd G. Scher
TODD G. SCHER
Florida Bar No. 899641
Law Office of Todd G. Scher, P.L.
1722 Sheridan St # 346
Hollywood, FL 33020-2275
Telephone: (754) 263-2349
FAX: (754) 263-4147
tscher@msn.com
COUNSEL FOR PETITIONER

34

ATTACHMENT A

Bogle v. State, 288 So.3d 1065 (2019)
44 Fla. L. Weekly S327

unreliability of an FBI lab examiner's testimony
comparing murder victim's pubic hair to a pubic
hair found on defendant's pants after the murder,

288 So.3d 1065
Supreme Court of Florida.

and that it violated
Giglio by presenting lab
examiner's false testimony, were procedurally
barred when raised in successive postconviction
motion; defendant was well aware of potential
deficiencies in lab examiner's testimony long
before the release of a Department of Justice and
FBI report critical of the testimony, on which
defendant relied, and defendant thus could have

Brett A. BOGLE, Appellant,
v.
STATE of Florida, Appellee.
No. SC17-2151
|
December 19, 2019
Synopsis
Background: After his convictions for murder, burglary with
assault or battery, and retaliation against a witness, and his
sentence of death, were affirmed by the Supreme Court,
655 So.2d 1103, on direct appeal, and the denial of his
initial motion for postconviction relief was also affirmed by
the Supreme Court, 213 So.3d 833, defendant filed successive
motion for postconviction relief. The Circuit Court, 13th
Judicial Circuit, Hillsborough County, Michelle Sisco, J.,
summarily denied the motion. Defendant appealed.

raised the
Brady and
Giglio claims in his
first postconviction motion, and did in fact raise
a claim that counsel was ineffective for failing to
challenge the testimony. U.S. Const. Amend. 6;
Fla. R. Crim. P. 3.851(e)(2).

[2]

Newly discovered evidence

To prevail on a newly discovered evidence claim,
the defendant must satisfy a two-prong test: first,
the evidence was not at the time of trial known by
the trial court, by the party, or by counsel, and the
defendant or his counsel could not have known of
it by the use of diligence, and second, the newly
discovered evidence must be of such a nature that
it would probably produce an acquittal on retrial.

Holdings: The Supreme Court held that:
[1] defendant's claims that State violated

Criminal Law

Brady and

Giglio were procedurally barred, and
[2] Department of Justice and FBI report that cast doubt on
FBI lab examiner's testimony did not entitle defendant to
relief on the basis of newly discovered evidence.

[3]

Canady, C.J., filed opinion concurring in result.
Procedural Posture(s): Appellate Review; Post-Conviction
Review.
[4]

[1]

Criminal Law

Particular issues and cases

Defendant's claims that State violated
Brady
by withholding exculpatory evidence about the

Newly discovered evidence

A court applying the second prong of the test for
evaluating a claim of newly discovered evidence,
which asks whether the evidence is of such
a nature that it would probably produce an
acquittal on retrial, must evaluate the importance
of the newly discovered evidence in the broader
context of any admissible evidence that could be
introduced at a new trial.

Affirmed.

West Headnotes (5)

Criminal Law

Criminal Law

Newly discovered evidence

Even if Department of Justice and FBI report
that cast doubt on FBI lab examiner's testimony
comparing murder victim's pubic hair to a
pubic hair found on defendant's pants after
the murder constituted “evidence,” for purposes
of postconviction claim seeking relief on

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Bogle v. State, 288 So.3d 1065 (2019)
44 Fla. L. Weekly S327

the basis of newly discovered evidence, the
information in the report would not probably
produce an acquittal on retrial and, thus, was
insufficient to entitle defendant to relief; report
merely amplified lab examiner's testimony on
cross-examination that hair comparisons did
not constitute a basis for absolute personal
identification, and more important evidence
supported defendant's conviction, including
DNA evidence showing his semen in victim's
body and underwear. Fla. R. Crim. P. 3.851(e)(2).

[5]

Courts
In general; retroactive or
prospective operation
Relief from a death sentence pursuant to
decisions of the United States Supreme Court in
Hurst v. Florida, 136 S.Ct. 616, and Florida

Opinion
PER CURIAM.
Brett A. Bogle, a prisoner under sentence of death, appeals the
circuit court's order summarily denying his successive motion
for postconviction relief. 1 For the reasons that follow, we
affirm the order.

FACTS
In 1992, Bogle was convicted of the first-degree murder
of Margaret Torres, burglary with assault or battery, and
retaliation against a witness.
Bogle v. State (Bogle I),
655 So. 2d 1103, 1104-05 (Fla. 1995). At an initial penalty
phase, the jury recommended death by a seven-to-five vote,
but the trial court granted a new penalty phase due to an

Supreme Court in
Hurst v. State, 202 So.3d
40, which held that facts necessary to a sentence
of death must be found unanimously by the
jury, and that the jury's recommended sentence
of death must be unanimous, is not available
to defendants whose death sentences were final

erroneous admission of evidence.
Id. at 1105. The trial
judge sentenced Bogle to death after the second penalty phase
resulted in a jury recommendation of death by a ten-to-

before U.S. Supreme Court's decision in Ring
v. Arizona, which held that a defendant has a
Sixth Amendment right to have a jury find the
statutory aggravating circumstances necessary
for imposition of the death penalty. U.S. Const.
Amend. 6.

sentence became final in 1995. 2 This Court also affirmed
the denial of Bogle's initial postconviction motion and denied
habeas relief. Bogle v. State (Bogle II), 213 So. 3d 833, 855
(Fla. 2017).

*1067 An Appeal from the Circuit Court in and for
Hillsborough County, Michelle Sisco, Judge - Case No.
291991CF012952000AHC
Attorneys and Law Firms
Linda McDermott of McClain & McDermott, P.A., Estero,
Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Timothy A. Freeland, Senior Assistant Attorney General,
Tampa, Florida, for Appellee

two vote.

Id. This Court affirmed Bogle's conviction and

sentence on direct appeal,

id. at 1110, and Bogle's death

There were no eyewitnesses to Bogle's murder of Torres.
Torres was the sister of a woman with whom Bogle had
lived, and Bogle and Torres did not get along.
Bogle I,
655 So. 2d at 1105. On the night of the murder, Bogle and
Torres had been at a bar; Bogle left shortly after Torres.
The next day, Torres's “nude and badly beaten body” was
found outside the bar.

Id. Her head had been “crushed

with a piece of cement.”
Id. “Additionally, she had semen
in her vagina and trauma to her anus consistent with sexual
activity that was likely inflicted before death.”
Id. One of
the state's witnesses at trial was Agent Michael Malone, an
FBI lab examiner. Malone testified that a pubic hair found
on Bogle's pants after the murder “microscopically matched
the pubic hairs of Margaret Torres.” Bogle II, 213 So. 3d at
847. On cross-examination, Malone acknowledged that “hair
comparisons do not constitute a basis for absolute personal
identification.” Id. Unrelated to Malone's testimony, expert

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Bogle v. State, 288 So.3d 1065 (2019)
44 Fla. L. Weekly S327

witnesses testified at trial and at the evidentiary hearing on
Bogle's first postconviction motion that Bogle's DNA was
consistent with DNA found in Torres's body and underwear.
Id. at 838, 846, 851.
In 2014, Bogle filed a successive postconviction motion
claiming he had newly discovered evidence of

Brady 3

and
Giglio 4 violations related to Agent Malone's hair
analysis testimony. Specifically, Bogle cited the results of a
2013 federal government review concluding that Malone's
testimony in Bogle's case overstated the reliability of
microscopic hair comparisons. The successive postconviction
motion also alleged that Bogle was entitled to relief under
*1068 Hurst v. State, 202 So. 3d 40 (Fla. 2016), and
under changes to Florida's capital sentencing statute enacted
after Hurst. In September 2017, the circuit court entered an
order summarily denying Bogle's second amended successive
postconviction motion, finding that the newly discovered
evidence claim was procedurally barred and that Bogle's
Hurst-related claims lacked merit. This appeal followed.

ANALYSIS
Summary denial of a successive postconviction motion is
appropriate “[i]f the motion, files, and records in the case
conclusively show that the movant is entitled to no relief.”
Fla. R. Crim. P. 3.851(f)(5)(B). Applying a de novo standard
of review, we find that test satisfied here, and we therefore
affirm the circuit court's summary denial of Bogle's motion.

Brady, Giglio, and Newly Discovered Evidence Claims
[1] Bogle's successive postconviction motion alleges that
the state withheld exculpatory evidence about the asserted
unreliability of Malone's testimony (in violation of Brady)
and knowingly presented Malone's “false” testimony (in
violation of
Giglio). The trial court summarily denied
these claims, finding them procedurally barred. We agree.
Bogle's claims rely on the results of a Department of Justice
and FBI review of cases in which Agent Malone had testified
about microscopic hair analysis. Released to the state in
August 2013 and later provided to Bogle, the review found
that Malone's testimony in Bogle's case “exceeded the limits

of science” in three ways: (1) by stating or implying that an
evidentiary hair could be associated with a specific individual
to the exclusion of all others; (2) by assigning a statistical
weight or probability to the likelihood that an evidentiary hair
originated from a particular source; and (3) by citing prior
cases to assign a predictive value to bolster the conclusion that
an evidentiary hair belonged to a particular individual.
The 2013 DOJ/FBI review is of no help to Bogle here,
however, because he cannot use a successive 3.851 motion
to litigate issues that he could have raised in his initial
postconviction motion. See Fla. R. Crim. P. 3.851(e)(2);
Schwab v. State, 969 So. 2d 318, 325 (Fla. 2007). 5
Bogle was well aware of potential deficiencies in Malone's
testimony long before the 2013 review (which, in any
event, on its face says nothing about what the state did or
did not know about the reliability of Malone's testimony).
In our opinion in Bogle II, for example, we noted that
“Bogle ... claims that his trial counsel was deficient in failing
to demonstrate that the hair comparison in this case was
unreliable and flawed.” 213 So. 3d at 847. Relatedly, the
record in Bogle's initial postconviction motion shows that
Bogle's counsel had received notice of the results of an earlier
DOJ review of Malone's work in Bogle's case. That 1999
review found that the lab reports of Malone's work were not
sufficiently documented to determine whether the work had
been done in a scientifically reliable manner. With diligence,
Bogle could have litigated in his initial postconviction motion
the same
[2]

Brady and

Giglio claims that he raises now.

[3] To the extent that Bogle asserts a newly discovered

evidence claim that is independent of his

Brady and

Giglio claims, that claim fails as well. To prevail on a
newly discovered evidence claim, the defendant must satisfy
a two-prong test: first, the evidence was not at the time of
trial known by the trial court, by the party, *1069 or by
counsel, and the defendant or his counsel could not have
known of it by the use of diligence; and second, the newly
discovered evidence must be of such a nature that it would
probably produce an acquittal on retrial. Duckett v. State, 231
So. 3d 393, 399 (Fla. 2017);
Jones v. State, 709 So. 2d
512, 521 (Fla. 1998). A court applying the second prong of
this test must evaluate the importance of the newly discovered
evidence in the broader context of any admissible evidence
that could be introduced at a new trial. Duckett, 231 So. 3d
at 399.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Bogle v. State, 288 So.3d 1065 (2019)
44 Fla. L. Weekly S327

[4] Even if we assume that the 2013 review constitutes
“evidence” that did not previously exist (and which Bogle
therefore could not have known about or uncovered), Bogle
cannot demonstrate that the information in the report would
probably produce an acquittal on retrial. The report does little
more than amplify what Malone already acknowledged on
cross-examination at Bogle's trial: that “hair comparisons do
not constitute a basis for absolute personal identification.”
Bogle II, 213 So. 3d at 847. And even more importantly, the
DNA evidence showing that Bogle's semen was in the murder
victim's body and underwear overwhelms the significance of
Malone's testimony that a pubic hair of the victim was on
Bogle's pants. See Duckett, 231 So. 3d at 399-400 (denying a
similar newly discovered evidence claim arising out of a 2013
federal government review of Malone's testimony); Long v.
State, 183 So. 3d 342, 347 (Fla. 2016) (same). The record
in this case conclusively refutes Bogle's newly discovered
evidence claim.

It is so ordered.

POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
CANADY, C.J., concurs in result with an opinion.
CANADY, C.J., concurring in result.
I agree that the order summarily denying postconviction relief
should be affirmed. I concur in the denial of Bogle's

Brady,

Giglio, and newly discovered evidence claims. I also agree
that Bogle is not entitled to relief on his
But I would deny the

Hurst claims.

Hurst claims on two grounds. First,

I would conclude that no

Hurst error occurred in this

case. I adhere to the view that
Hurst v. Florida, ––– U.S.
––––, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016), only requires
that the jury find an aggravating circumstance that renders a

Hurst Claims
[5] Bogle also challenges the summary denial of his claim
that the Sixth and Eighth Amendments, together with
post- Hurst changes to Florida's capital sentencing statute,
demand full retroactive application of this Court's decision
in
Hurst v. State. Under this Court's precedents,
Hurst
relief is not available to defendants, like Bogle, whose death
sentences were final prior to the Supreme Court's decision
in
Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153
L.Ed.2d 556 (2002). This Court has repeatedly denied claims
similar to Bogle's, and we decline to revisit our precedents
here. See, e.g., Reese v. State, 261 So. 3d 1246, 1246-47 (Fla.
2019).

defendant eligible for a death sentence. See
Hurst v. State,
202 So. 3d 40, 77-82 (Fla. 2016) (Canady, J., dissenting), cert.
denied, ––– U.S. ––––, 137 S. Ct. 2161, 198 L.Ed.2d 246
(2017). Here, that requirement was satisfied because the jury's
verdict that Bogle had committed “burglary with force ...
on the victim” and her sister two weeks before the murder
established *1070 the existence of the prior violent felony
aggravator.

Bogle v. State, 655 So. 2d 1103, 1105 (Fla.

1995). Second, even if

Hurst error were present in this

case, I would still deny relief. In my view,
Hurst should
not be given retroactive application. See Mosley v. State, 209
So. 3d 1248, 1285-91 (Fla. 2016) (Canady, J., concurring in
part and dissenting in part).
All Citations

CONCLUSION
For the foregoing reasons, we affirm the postconviction
court's summary denial of Bogle's second amended
successive postconviction motion.

288 So.3d 1065, 44 Fla. L. Weekly S327

Footnotes

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Bogle v. State, 288 So.3d 1065 (2019)
44 Fla. L. Weekly S327

1
2
3
4
5

We have jurisdiction. See art. V, § 3(b)(1), Fla. Const.
Bogle v. Florida, 516 U.S. 978, 116 S.Ct. 483, 133 L.Ed.2d 410 (1995) (cert. denied).
Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963).
Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972).
Given this conclusion, we need not address whether Bogle's
Brady and
Giglio claims are also untimely.
See Fla. R. Crim. P. 3.851(d)(2) (setting out limited exceptions to one-year time limit).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

ATTACHMENT B

Supreme Court of Florida
TUESDAY, FEBRUARY 11, 2020
CASE NO.: SC17-2151
Lower Tribunal No(s).:
291991CF012952000AHC
BRETT A. BOGLE
Appellant(s)

vs.

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
A True Copy
Test:

kc
Served:
LINDA MCDERMOTT
TIMOTHY ARTHUR FREELAND
HON. MICHELLE SISCO
HON. PAT FRANK, CLERK
JAY PRUNER
HON. RONALD N. FICARROTTA, CHIEF JUDGE

